August 13, 2012

TO:           Mary Wakefield, Ph.D., R.N.
              Administrator
              Health Resources and Services Administration


FROM:         /Kay L. Daly/
              Assistant Inspector General for Audit Services


SUBJECT:      North Shore Community Health, Inc., Claimed Unallowable Costs Against
              Recovery Act Grants (A-01-11-01502)


Attached, for your information, is an advance copy of our final report on costs claimed by North
Shore Community Health, Inc. (North Shore), under the American Recovery and Reinvestment
Act of 2009. We will issue this report to North Shore within 5 business days.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1157 or through email at Kay.Daly@oig.hhs.gov, or your staff may contact Michael J.
Armstrong, Regional Inspector General for Audit Services, Region I, at (617) 565-2689 or through
email at Michael.Armstrong@oig.hhs.gov. Please refer to report number A-01-11-01502.


Attachment
 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




NORTH SHORE COMMUNITY HEALTH,
INC., CLAIMED UNALLOWABLE COSTS
  AGAINST RECOVERY ACT GRANTS




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.


                                                       Kay L. Daly
                                                Assistant Inspector General

                                                        August 2012
                                                       A-01-11-01502
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                                O FFICE OF A UDIT S ERVICES , R EGION I
                                                                              JFK F EDERAL B UILDING
                                                               15 N EW S UDBURY S TREET, R OOM 2425
                                                                                 B OSTON , MA 02203

                                             August 16, 2012
Report Number: A-01-11-01502

Ms. Margaret A. Brennan
Chief Executive Officer
North Shore Community Health, Inc.
27 Congress Street, Suite 103
Salem, MA 01970

Dear Ms. Brennan:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled North Shore Community Health, Inc., Claimed Unallowable
Costs Against Recovery Act Grants. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact George Nedder, Audit Manager, at (617) 565-3463 or through email at
George.Nedder@oig.hhs.gov. Please refer to report number A-01-11-01502 in all
correspondence.


                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Margaret A. Brennan


Direct Reply to HHS Action Official:

Ms. Sandy Seaton
Health Resources and Services Administration
Room 13C-24
Parklawn Building
5600 Fishers Lane
Rockville, MD 20857
                                  EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program. The Health Center Program provides grants to
nonprofit private or public entities that serve designated medically underserved populations and
areas, as well as vulnerable populations of migrant and seasonal farm workers, the homeless, and
residents of public housing.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including New Access Point, Capital Improvement
Program, and Increased Demand for Services grants.

North Shore Community Health, Inc.

North Shore Community Health, Inc. (North Shore), is a nonprofit agency, located in the North
Shore region of Massachusetts, that provides medical and dental services to residents regardless
of their ability to pay. In 2010, North Shore provided primary care services to 11,711 people at 4
service sites. For the period July 2008 through June 2011, North Shore received approximately
$23 million in revenue from all funding sources, including three HRSA-awarded Recovery Act
grants totaling $2,049,525.

Objective

Our objective was to determine whether costs claimed by North Shore were allowable under the
terms of the grants and applicable Federal regulations.

SUMMARY OF FINDING

We could not determine whether $2,049,525 in Recovery Act grant costs claimed by North
Shore was allowable under the terms of the grants and applicable Federal regulations. North
Shore did not track and account for Recovery Act expenditures separately from other (Federal
and non-Federal) operating expenses; therefore, it could not demonstrate that it spent Recovery
Act grant funds for allowable costs.




                                                i
This deficiency occurred because North Shore did not (1) maintain a financial management
system that provided for accurate, current, and complete disclosure of the financial results of its
Recovery Act grants and (2) separately track and account for Recovery Act funds.

RECOMMENDATIONS

We recommend that HRSA:

   •   require North Shore to refund $2,049,525 to the Federal Government or work with North
       Shore to determine whether any of the costs that it claimed against Recovery Act grants
       were allowable and

   •   ensure that North Shore (1) develops a financial system that provides for the accurate,
       current, and complete disclosure of the financial results of each HHS-sponsored project
       or program and (2) tracks and accounts for each grant’s expenditures separately from
       other operating expenditures.

NORTH SHORE COMMUNITY HEALTH, INC., COMMENTS

In written comments on our draft report, North Shore stated that it adjusted its internal financial
reporting process to be in compliance with Federal requirements. North Shore’s comments are
included in their entirety as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our findings. HRSA’s comments
are included in their entirety as Appendix B.




                                                 ii
                                                   TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................1

       BACKGROUND ...........................................................................................................1
          The Health Center Program ..................................................................................1
          American Recovery and Reinvestment Act Grants ..............................................1
          North Shore Community Health, Inc. ...................................................................1
          Requirements for Federal Grantees ......................................................................2

       OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
           Objective ...............................................................................................................2
           Scope .....................................................................................................................2
           Methodology .........................................................................................................2

FINDING AND RECOMMENDATIONS ..........................................................................3

       GRANT FUNDS NOT SEPARATELY ACCOUNTED FOR .....................................3

       RECOMMENDATIONS ...............................................................................................4

       NORTH SHORE COMMUNITY HEALTH, INC., COMMENTS ..............................4

       HEALTH RESOURCES AND SERVICES ADMINISTRATION
        COMMENTS ..............................................................................................................4

APPENDIXES

       A: NORTH SHORE COMMUNITY HEALTH, INC., COMMENTS

       B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                     iii
                                       INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing. Health
centers funded by HRSA are community-based and patient-directed organizations meeting the
definition of “health center” under 42 U.S.C. § 254b(a).

American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations.

HRSA awarded a number of grants using Recovery Act funding in support of the Health Center
Program, including New Access Point (NAP), Capital Improvement Program (CIP), and
Increased Demand for Services (IDS) grants.

North Shore Community Health, Inc.

North Shore Community Health, Inc. (North Shore), is a nonprofit agency, located in the North
Shore region of Massachusetts, that provides medical and dental services to residents regardless
of their ability to pay. In 2010, North Shore provided primary care services to 11,711 people at 4
service sites.

For the period July 2008 through June 2011, North Shore received approximately $23 million in
revenue from all funding sources, including three HRSA-awarded Recovery Act grants totaling
$2,049,525:

   •   a NAP grant of $1,300,000, awarded in February 2009, for a new site in Gloucester,
       Massachusetts, where patients receive medical and dental services;



                                                1
   •    a CIP grant of $551,910, awarded in June 2009, to construct five additional patient rooms
        at an existing site in Peabody, Massachusetts; and

   •    an IDS grant of $197,615, awarded March 2009, to increase access and reduce barriers to
        health care within North Shore’s service area.

Requirements for Federal Grantees

HRSA Community Health Center grantees must comply with the regulations at 42 CFR part 51c.
Nonprofit organizations that receive HRSA funds must also comply with the administrative
requirements at 45 CFR part 74 and the Federal cost principles found at 2 CFR part 230
(Office of Management and Budget (OMB) Circular A-122) and made applicable by 45 CFR
§ 74.27(a). In a grant award’s terms and conditions, an HHS awarding agency may include
additional requirements that it considers necessary to attain an award’s objectives.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by North Shore were allowable under the
terms of the grants and applicable Federal regulations.

Scope

Our review covered $2,049,525 that North Shore claimed against its Recovery Act grants for the
period February 2009 through June 2011. We performed this review in response to a request
from HRSA. We did not perform an overall assessment of North Shore’s internal control
structure. Rather, we reviewed only the internal controls that pertained directly to our objective.

We performed fieldwork at North Shore’s office in Salem, Massachusetts, from September
through October 2011.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed North Shore’s Recovery Act grant application packages and HRSA’s Notices of
        Grant Award;

   •    reviewed North Shore’s OMB Circular A-133 Audited Consolidated Financial Report for
        fiscal years 2009, 2010, and 2011;

   •    interviewed North Shore management to gain an understanding of its accounting systems,
        internal controls, and implementation of Recovery Act grant awards;

                                                 2
   •   reviewed North Shore’s policies and procedures for financial management;

   •   compared total expenditures to funds drawn from Recovery Act grants;

   •   traced the transactions from North Shore’s general ledgers to supporting source
       documents, which included third-party invoices and checks;

   •   selected and reviewed 39 transactions totaling $230,129 from North Shore’s operating
       account check register to determine whether North Shore had incurred any costs that
       would be unallowable for Federal reimbursement;

   •   reviewed labor distribution reports and timesheets for the Gloucester site; and

   •   discussed the results of our audit with North Shore officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

We could not determine whether $2,049,525 in Recovery Act grant costs claimed by North
Shore was allowable under the terms of the grants and applicable Federal regulations. North
Shore did not track and account for Recovery Act expenditures separately from other (Federal
and non-Federal) operating expenses; therefore, it could not demonstrate that it spent Recovery
Act grant funds for allowable costs.

This deficiency occurred because North Shore did not (1) maintain a financial management
system that provided for accurate, current, and complete disclosure of the financial results of its
Recovery Act grants and (2) separately track and account for Recovery Act funds.

GRANT FUNDS NOT SEPARATELY ACCOUNTED FOR

Grantee financial management systems must provide for the accurate, current, and complete
reporting of grant-related financial data, pursuant to 45 CFR § 74.21(b)(1). Grantee records
must adequately identify “the source and application of funds for HHS-sponsored activities,”
including “information pertaining to Federal awards, authorizations, obligations, unobligated
balances, assets, outlays, income and interest” (45 CFR § 74.21(b)(2)), and grantee accounting
records must be supported by source documentation (45 CFR § 74.21(b)(7)). The Community
Health Services regulations (42 CFR § 51c.112(a)) also require that all grant payments be
accounted for separately from all other funds, including funds derived from other grant awards.
Pursuant to paragraph 7 of the Program Terms in North Shore’s notices of Recovery Act grant
awards, Recovery Act funds must be tracked separately from other Federal grant funds.


                                                 3
We could not determine whether $2,049,525 in Recovery Act grant costs claimed by North
Shore was allowable under the terms of the grants and applicable Federal regulations. North
Shore’s accounting system did not provide accurate, current, and complete disclosure of the
financial results of its Recovery Act grants. Specifically, North Shore did not segregate
Recovery Act expenditures from other operating expenditures. Although we could not determine
whether North Shore charged the costs that we reviewed to the Recovery Act grants, we found
that North Shore incurred costs that would not have been allowable if they had been charged to
the Recovery Act grants. Of the 39 transactions totaling $230,129 that we reviewed, we found
that 19 transactions totaling $21,980 would not have been allowable under the terms and
conditions of North Shore’s Recovery Act grants. Because it did not track and account for
Recovery Act expenditures separately from other operating expenditures, North Shore was not
able to demonstrate that it spent specific Recovery Act grant funds for allowable costs.

RECOMMENDATIONS

We recommend that HRSA:

   •   require North Shore to refund $2,049,525 to the Federal Government or work with North
       Shore to determine whether any of the costs that it claimed against Recovery Act grants
       were allowable and

   •   ensure that North Shore (1) develops a financial system that provides for the accurate,
       current, and complete disclosure of the financial results of each HHS-sponsored project
       or program and (2) tracks and accounts for each grant’s expenditures separately from
       other operating expenditures.

NORTH SHORE COMMUNITY HEALTH, INC., COMMENTS

In written comments on our draft report, North Shore stated that it adjusted its internal financial
reporting process to be in compliance with Federal requirements. North Shore’s comments are
included in their entirety as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our findings. HRSA’s comments
are included in their entirety as Appendix B.




                                                 4
APPENDIXES
             APPENDIX A: NORTH SHORE COMMUNITY HEALTH, INC., COMMENTS 

                                                                       Page 10f2
                                               NORTH SHORE



                                      COMMUNITY HEALTH, INC.


        June 26, 2012

        Michael J. Armstrong 

        Regional Inspector General for Audit Services 

        DHHS/Office ofInspector General 

        Office of Audit Services, Region I 

        JFK Federal Building 

        15 New Sudbury Street, Room 2425 

        Boston, MA 02203 


        RepOlt #A-O 1-11-0 1502

        Dear Mr. Armstrong:

        We have reviewed the Office of Inspector General (OIG) draft report entitled"NOlth Shore
        Community Health, Inc. Claimed Unallowable Costs Against Recovery Act Grants:' In
        response, NSCHI wants to make clear that the goals and purposes of the ARRA funding were
        met including:

            • 	 As a result of $1 ,300,000 in New Access Point funding, NSCHI increased access to
                comprehensive primary care and provided services at the new Gloucester Family Health
                Center for 2,280 residents of Gloucester and the surrounding communities.
            • 	 As a result of$197,615 in Increased Demand for Services funding, NSCHI provided
                community-based dental care at Gloucester Family Health Center to 2,696 residents of
                Gloucester and the surrounding communities.
            • 	 As a result of $551 ,91 0 in CIP funding, NSCHI expanded the services at Peabody Family
                Health Center to include dental care and improved access to community based dental
                services for residents of Peabody and the surrounding communities.

        All of these activities increased access to care for uninsured and underinsured patients in our
        service area and allowed NSCHI to further the objectives of the Section 330 program.

        Since the ARRA funding was also intended to create and/or retain jobs, the following represents
        the economic impact ofNSCHfs ARRA funding:
            • 	 NSCHfs project supported nine (9) construction jobs.
            • 	 NSCHI hired and retained five (5) full-time employees (FTEs)-a Dentist, a medical
                provider (MD), a Medical Assistant, a Referral Coordinator and a Medical Records
                Assistant.

                                       Dedicated to Community Health
Gloucester Fami~ Health Center   Peabody Family Health Center   Salem Family Health Center   SChOOl Base He alth Center
302 Washington Street            89 Faster Street               47 Congress Street           77 Willson Street
Gloucester, MA 01930·4836        Peabody, MA 01960-5933         Salem, MA 0 1970-5507        Salem, MA 01970-2898
Tel. 978-282-8899                Tel. 978-532-4903              Tel. 978 -744 -8388          Tel. 978-740-1220
Voice/TTY: 978-236-0280          Vaice/TTY: 978-532-4914        Voice/TTY: 978-744-1847      Voice/TTY: 978 -740-1220
FAX: 978-282-5599                FAX: 978-532-4995              FAX: 978-740-0674            FAX: 978-740-1217
                                                                                                   Page 2 of2


North Shore Community Health, Inc. made adjustments to its internal financial reporting
processes last fall and feels confident that we are fully in compliance with all federal funding
reporting requirements. We welcome any additional support or technical assistance from
HRSA.

Please let me know if you have questions or need additional information. I can be reached at
(978) 825-1109 or via email at mbrennan@nschi.org.
APPENDIX B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS
                                                               Page 1 of2
   DEPARTMENT OF HEALTH & HUMAN SERVICES 	                             Health Resources and SeN ices
                                                                       Administration


                                                                       Rockville, MD 20857


                                        JUL 2 4 1012


   TO: 	         Inspector General

   FROM: 	       Administrator

   SUBJECT: 	    OIG Draft Report: "North Shore Community Health, Inc., Claimed 

                 Unallowable Costs Against Recovery Act Grants" (A-OI-II -OIS02) 


   Attached is the Health Resources and SClVices Administration's (HRSA) response to 

   the OIG's draft report, "North Shore Community Health, Inc., Claimed Unallowable 

   Costs Against Recovery Act Grants" (A~0l-11 - 01502). If you have any questions, 

   please contact Sandy Seaton in HRSA's Office of Federal Assistance Management 

   at (301) 443-2432. 



                                            '~-c~.c-
                                              Mary K. Wakefield, Ph.D., R.N .

   Attachment
                                                                                                    Page 2 of 2




  Health Resources and Services Administration's Comments on the OIG Draft Report ­

           "North Shore Community Health, Inc., Claimed Unallowable Costs 

                    Against Recovery Act Grants" (A-0l-I1 -01502) 


The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA's response to the Office oflnspector General (OIG)
draft recommendations are as follows:

OIG Recommendation to HRSA:

We recommend that HRSA require North Shore to refund $2,049,525 to the Federal Government
or work with North Shore to determine whether any of the costs that it claimed against Recovery
Act grants were allowable.

HRSA Response:

HRSA concurs with the OIG recommendation and will work with the grantee to detennine which
Recovery Act grant costs are allowable.

OIG Recommendation to HRSA:

We recommend that HRSA ensure that North Shore (1) develops a financial system that provides
for the accurate, current, and complete disclosure of the financial results of each HHS-sponsored
project or program and (2) tracks and accounts for each grant's expenditures separately from
other operating expenditures.

HRSA Response:

HRSA concurs with the DIG recommendation and will assist the grantee in establishing a
financial system to improve its tracking of HRSA grants.
